App. 1
United States Court of Appeals
for the Eighth Circuit
----------------------------------------------------------------------------------------------------

No. 20-1772
----------------------------------------------------------------------------------------------------

KD, Parent, Natural Guardian and Next
Friend of minor LD; JD, Parent, Natural
Guardian and Next Friend of minor LD
Plaintiffs - Appellants
v.
Douglas County School District No. 001, also
known as Omaha Public Schools; Daniel Bartels
Defendants - Appellees
Joe Doe; Jane Doe
Defendants
Brian Robeson
Defendant - Appellee
-----------------------------------------------------------------------

Appeal from United States District Court
for the District of Nebraska - Omaha
-----------------------------------------------------------------------

Submitted: March 18, 2021
Filed: June 16, 2021
-----------------------------------------------------------------------

App. 2
Before SHEPHERD, ERICKSON, and KOBES, Circuit
Judges.
-----------------------------------------------------------------------

SHEPHERD, Circuit Judge.
This case arises from the sexual abuse of LD (a
13-year-old, female 7th-grade student) by her male
Douglas County Nebraska Public School District
teacher, Brian Robeson. After Robeson was convicted
of first-degree sexual assault, KD and JD, LD’s parents, brought this action against the Douglas County
Nebraska Public School District (the District); Robeson; Daniel Bartels, the school principal; and Joe and
Jane Doe. The district court1 granted summary judgment in favor of the District and Bartels; entered a default judgment against Robeson; denied KD and JD’s
request for a jury trial on the issue of damages against
Robeson; and awarded damages of $1,249,540.41
against Robeson. KD and JD now appeal: the district
court’s grant of summary judgment; the order denying
their request for a jury trial on the issue of damages
against Robeson; and the amount of damages. Having
jurisdiction pursuant to 28 U.S.C. § 1291, we affirm.
I.
From August 14, 2013, to May 22, 2015, LD attended 7th and 8th grade at Alfonza Davis Middle
School in Douglas County. During her 7th-grade year,
1

The Honorable Laurie Smith Camp, United States District
Judge for the District of Nebraska, now deceased.

App. 3
LD was a student in Robeson’s algebra and “Take
Flight” classes.
In April 2014, a school staff member notified Bartels that Robeson was mentoring LD, one-on-one, in
his classroom. All mentorship relationships within the
District were facilitated by the TeamMates program,
and this program required same-sex mentor-mentee
pairings. At this time, Bartels informed Robeson that
Robeson could not mentor LD without permission from
LD’s parents and without acceptance into the TeamMates program. Robeson subsequently emailed JD,
LD’s mother, providing updates about his mentorship
of LD and requesting that JD and KD, LD’s father, sign
the requisite TeamMates program paperwork permitting Robeson to continue mentoring LD into LD’s 8th
grade year. Robeson included Bartels on this email. At
the beginning of LD’s 8th grade year (in the fall of
2014), Bartels asked Robeson if Robeson had been accepted into the TeamMates program, to which Robeson
responded that he had been accepted. At some point,
LD’s parents gave consent for Robeson to have lunchtime meetings with LD, and Bartels instructed Robeson that all meetings with LD were to take place in the
administrative offices.
In late April 2014, Robeson attended a schoolsponsored, weekend field trip. While on that field trip,
Robeson emailed Bartels and attached photographs of
himself with students. LD was included in those photographs. Below the email containing photographs
were pages of dialogue between Robeson and LD in
which Robeson expressed his affection for LD. Robeson

App. 4
used language such as “sweetheart” and “Sunshine,”
and Robeson told LD, “I’ve never had a student mean
this much to me.” However, at this time, Bartels only
noted the field trip photographs and did not notice the
email chain containing dialogue between Robeson and
LD.
In the fall of 2014, Jennie Meyer, a school employee, noticed LD (then an 8th grader) and several
friends visiting the 7th-grade floor on which Robeson
taught. Meyer reported this to the administration. Bartels responded by contacting JD, LD’s mother, to let her
know that LD was visiting Robeson’s floor. On a separate occasion, Meyer found LD in Robeson’s classroom,
alone with Robeson and crying. At this time, Meyer
made a second report to the administration. In response, the assistant principal visited Robeson’s classroom and asked Robeson why he was alone with LD
and why LD was crying. Robeson indicated that everything was okay, and LD continued to her next class. In
November 2014, Bartels noticed LD and Robeson alone
in Robeson’s classroom eating lunch. Bartels stopped
and asked the pair what they were doing, to which they
responded that they were conducting a mentoring session. Bartels reminded them that all mentoring sessions were to take place in the administrative offices.
Later that afternoon, Bartels met with Robeson individually and again reminded him that any mentoring
sessions must take place in the administrative offices.
Later that school year, the school counselor told
Bartels that a coach saw Robeson tie LD’s shoe in
the school hallway with other coaches and students

App. 5
present. When Bartels confronted Robeson about this,
Robeson denied tying LD’s shoe. Then, in March 2015,
Bartels found an anonymous note in his school mailbox
which read: “I find it curious that LD is absent on the
same day as Mr. Robeson.” Bartels showed this note to
the assistant principal, but because neither administrator could determine who the note’s author was, Bartels threw the note away. Nevertheless, Bartels called
KD to determine the reason for LD’s absence. KD indicated that LD was ill and at home for the day.
In April 2015, Bartels received a report from
Chantalle Galbraith, a paraprofessional at the school,
indicating that Robeson had grabbed LD’s phone from
the back pocket of her pants in the presence of other
students and coaches. Bartels had recently hosted a
professional development program with the school’s
faculty and staff in which he discussed the impropriety
of possessing student property. When Galbraith voiced
concern about Robeson grabbing LD’s phone, she indicated that this was a violation of the professional development lesson Bartels had recently taught. When
Bartels asked Robeson about this, Robeson admitted
that he had grabbed LD’s phone; Bartels warned Robeson against engaging in this type of behavior with students. Later that spring, Galbraith found LD and
Robeson eating together in Robeson’s classroom with
the lights dimmed. After Galbraith reported this to
Bartels, Bartels immediately dispatched the school’s
security officer to the classroom. However, when the officer arrived, the classroom appeared to be empty. Regardless, Bartels later met with Robeson, admonished

App. 6
Robeson for this behavior, and counseled Robeson regarding appropriate interactions with students.
In May 2015, a teacher and the school counselor
copied Bartels on an email chain in which they expressed their concern about the amount of time that
Robeson was spending with LD. The counselor agreed
to call KD and JD to offer additional resources for difficulties LD was experiencing with her friendships and
to alert them of the attention Robeson was giving LD.
That same month, the teacher also sent a photo of
Robeson hugging another student for a prolonged period of time. In response, Bartels thanked the teacher
and indicated that if she believed Robeson was engaging in inappropriate sexual conduct with students, she
should report Robeson to Child Protective Services
(CPS). The teacher reported Robeson to CPS, and in
her report, she expressed concern about Robeson’s behavior toward LD. Specifically, the teacher described
witnessing Robeson “poking [LD] in the stomach in a
hallway as well as touching her shoulder as if he was
giving her a massage.” CPS indicated that it would forward the report to the Omaha Police Department. The
District’s human resources department instructed
Bartels to meet with Robeson to discuss the expectations of Robeson’s employment, including his behavior
towards students. Bartels met with Robeson in June of
2015. Then, in December 2015, the District was notified of Robeson’s arrest for his sexual assault of LD. At
that time, the District terminated Robeson’s employment contract, deferred its then-ongoing investigation
of Robeson (for conduct unrelated to LD) to the police

App. 7
department, and delivered a letter to Robeson evidencing the termination of his employment.
KD and JD (Appellants) filed a complaint with the
district court, naming the District, Bartels, Robeson,
and Joe and Jane Doe as defendants. Appellants
brought six claims: (1) a 20 U.S.C. § 1681 (Title IX)
claim against the District; (2) a 42 U.S.C. § 1983 claim
against Bartels, Robeson, and Joe and Jane Doe; (3) a
Nebraska Political Subdivisions Tort Claims Act claim
against the District, Bartels, and Joe and Jane Doe;
(4) a battery claim against Robeson; (5) an intentional
infliction of emotional distress claim against Robeson;
(6) and an aiding and abetting intentional infliction of
emotional distress claim against Bartels and Joe and
Jane Doe.2 Appellants included a jury trial demand. After discovery, the District and Bartels each moved for
summary judgment, and the district court granted
both motions. Robeson failed to enter his appearance
in the case, and the district court entered a default
judgment against Robeson. The district court held a
damages hearing, absent a jury, and awarded Appellants $1,249,540.41 in damages against Robeson.
II.
Appellants first argue that the district court erred
in granting the District’s and Bartels’s summary
2

The district court dismissed Appellants’ claims against the
Doe defendants because Appellants failed to name those defendants. Appellants do not appeal this dismissal, and therefore we do
not address Appellants’ claims against the Doe defendants.

App. 8
judgment motions. “We review de novo a district court
order granting summary judgment, viewing the evidence in the light most favorable to the non-moving
party, and drawing all reasonable inferences in their
favor.” K.C. v. Mayo, 983 F.3d 365, 368 (8th Cir. 2020).
Summary judgment is appropriate where no genuine
dispute of material fact exists. See Turner v. XTO Energy, Inc., 989 F.3d 625, 627 (8th Cir. 2021); Fed. R. Civ.
P. 56(a). “To avoid summary judgment, the non-movant
must make a sufficient showing on every essential element of its claim on which it bears the burden of proof.”
P.H. v. Sch. Dist. of Kan. City, 265 F.3d 653, 658 (8th
Cir. 2001) (citation omitted).
A.
Title IX, subject to several exceptions which are
inapplicable here, prohibits discrimination on the basis of sex in educational programs or activities receiving Federal financial assistance. 20 U.S.C. § 1681.
Discrimination on the basis of sex encompasses sexual
harassment of a student by a teacher. Du Bois v. Bd. of
Regents of Univ. of Minn., 987 F.3d 1199, 1203 (8th Cir.
2021) (citing Gebser v. Lago Vista Indep. Sch. Dist., 524
U.S. 274, 281-82 (1998)). Further, Title IX creates a private right of action that the United States Supreme
Court and this Court have long recognized. See, e.g.,
Davis v. Monroe Cnty. Bd. of Educ., 526 U.S. 629, 639
(1999); Wolfe v. Fayetteville Sch. Dist., 648 F.3d 860,
864 (8th Cir. 2011). However:

App. 9
a private plaintiff is not entitled to damages
under Title IX for a teacher’s sexual harassment unless an official of the grant recipient
with authority to address harassment complaints had actual notice of the teacher’s alleged misconduct, and the official’s inadequate
response amounted to deliberate indifference
to the discrimination.
Cox v. Sugg, 484 F.3d 1062, 1067 (8th Cir. 2007) (citing
Gebser, 524 U.S. at 29092).3
Relatedly, a supervisory school administrator may
be held liable for a Title IX violation pursuant to 42
U.S.C. § 1983. K.C., 983 F.3d at 368. “Where, as here,
the complaint involves allegations against school officials brought under both Title IX and § 1983, ‘our
[C]ourt has held that an official in these circumstances
must have “actual notice” of the alleged “sexual harassment” or “sexual abuse” to meet the standard for liability.’ ” Id. (citations omitted); see also Doe v. Flaherty,
623 F.3d 577, 584 (8th Cir. 2010) (“Where both the Title
IX and the § 1983 action allege discrimination by the
same policymaking official and are premised on the
same facts, Cox[, 484 F.3d 1062] adopted comparable
notice standards to prevent the § 1983 action from
trumping ‘the Supreme Court’s careful crafting of the
implied statutory damage action under Title IX.’ . . .
Accordingly, our [C]ourt has held that an official in
3

The Supreme Court has previously identified school principals as persons with the authority to address harassment complaints, see, e.g., Plamp v. Mitchell Sch. Dist., 565 F.3d 450, 457
(8th Cir. 2009), and here the parties do not dispute that Bartels
had such authority.

App. 10
these circumstances must have ‘actual notice’ of the alleged ‘sexual harassment’ or ‘sexual abuse.’ ” (citation
omitted)).
The actual notice standard is quite onerous, and
favoritism towards the student; inordinate time spent
with the student; unprofessional conduct towards the
student; and vague complaints about the teacher’s behavior toward the student (which do not expressly allege sexual abuse of that student) fall short of creating
actual notice. See, e.g., Gebser, 524 U.S. at 291 (finding
that “a complaint from parents of other students
charging only that [the teacher] had made inappropriate comments during class . . . was plainly insufficient to alert the principal to the possibility that [the
teacher] was involved in a sexual relationship with a
student”); Flaherty, 623 F.3d at 585 (finding that “inappropriate” and “suggestive” text messages could not
impute actual notice because the messages “did not go
so far as to suggest actual sexual conduct or sexual
abuse”); P.H., 265 F.3d at 659 (explaining that without
reports of sexual contact or suspected sexual contact
between teacher and student, the teacher’s “conduct of
spending too much time with [the student] causing
[the student] to be absent from or tardy to classes” did
not establish actual notice of ongoing sexual abuse).
Therefore, in order to survive the District’s and Bartels’s motions for summary judgment, Appellants
needed to present “a genuine issue as to whether [Bartels] had actual notice of sexual abuse or harassment

App. 11
and failed to adequately respond.” See K.C., 983 F.3d
at 368.4
Although Robeson’s abuse of LD was unquestionably despicable, Appellants failed to present any evidence that Bartels had actual notice of that abuse,
making summary judgment appropriate. See id. Bartels received complaints from faculty and staff members about LD visiting Robeson’s floor; LD alone with
Robeson in his classroom at lunch time; Robeson tying
LD’s shoelace in the hallway; Robeson and LD being
absent from school on the same day; Robeson grabbing
LD’s phone out of the back pocket of her pants; and the
amount of time that Robeson and LD were spending
together. However, none of these complaints alleged
sexual abuse. See, e.g., Flaherty, 623 F.3d at 585. Further, even when Bartels “investigated” complaints that
he received, his investigation did not actually place
him on notice of Robeson’s sexual abuse of LD. For example, in response to a complaint that LD and Robeson
were eating lunch in Robeson’s classroom with the
lights dimmed, Bartels sent the school’s security officer
to the classroom. When the officer arrived, however, the
classroom appeared to be empty. Similarly, in response
to a complaint that Robeson and LD were absent from
4

Appellants support their Title IX argument with the contention that because Bartels had actual notice, the District also
had actual notice. Appellants do not contend that other District
employees with the authority to address harassment complaints
had actual notice. As a result, our inquiry for Appellants’ Title IX
and § 1983 claims is a singular one: whether a genuine issue of
fact exists as to whether Bartels had actual notice of Robeson’s
misconduct. See K.C., 983 F.3d at 368.

App. 12
school on the same day, Bartels contacted LD’s father,
who assured Bartels that LD was ill and at home.
Appellants also point to the District’s personnel
policies, directing us to a specific provision which requires a “prompt, adequate, reliable, thorough, and
impartial investigation” where the District “knows or
reasonably should know about possible harassment.”
However, to find the District and Bartels liable under
Title IX and § 1983, respectively, based on such a provision would allow the District to transform this
Court’s and the Supreme Court’s actual notice standard into one of mere negligence (i.e., “knows or reasonably should know”) simply through its policies. Doe v.
Dardanelle Sch. Dist., 928 F.3d 722, 725 (8th Cir. 2019)
(explaining that such claims cannot be predicated on
mere negligence). After a careful review of the record,
we find that the record fails to support Appellants’
claim that Bartels had actual notice of Robeson’s abuse
of LD, and we need not reach the deliberate indifference prong. Therefore, summary judgment in favor of
the District (on Appellants’ Title IX claim) and in favor
of Bartels (on Appellants’ § 1983 claim) was appropriate.5
5

The district court found that Appellants’ claim against Bartels was against him in his official, rather than individual, capacity. We agree. “This [C]ourt has held that, in order to sue a public
official in his or her individual capacity, a plaintiff must expressly
and unambiguously state so in the pleadings, otherwise, it will be
assumed that the defendant is sued only in his or her official capacity.” Alexander v. Hedback, 718 F.3d 762, 766 n.4 (8th Cir.
2013) (citation omitted). Here, Appellants did not “expressly and
unambiguously” name Bartels in his individual capacity; instead,

App. 13
B.
Next, the district court did not err by granting
summary judgment in favor of the District and Bartels
on Appellants’ Nebraska Political Subdivisions Tort
Claims Act (the PSTCA) claim. “Under the PSTCA, a
political subdivision has no liability for the torts of its
officers, agents, or employees, ‘except to the extent, and
only to the extent, provided by the [PSTCA].’ ” Edwards
v. Douglas Cnty., 953 N.W.2d 744, 750 (Neb. 2021) (alteration in original) (citation omitted). In Nebraska,
“[t]he [PSTCA] is the exclusive means by which a tort
claim may be maintained against a political subdivision or its employees,” Jessen v. Malhotra, 665 N.W.2d
586, 590 (Neb. 2003), because it “allows a limited
waiver of a political subdivision’s sovereign immunity
with respect to certain, but not all, types of tort actions,” Rutledge v. City of Kimball, 935 N.W.2d 746, 750
(Neb. 2019). However, the PSTCA sets forth a list of
claims that are “excepted” from the PSTCA’s waiver of
sovereign immunity, and where a plaintiff attempts to
bring one of those claims against a political subdivision, that political subdivision is immune from suit.
Rutledge, 935 N.W.2d at 750. One exception, which
the district court found was present in this case, is
Appellants’ complaint identifies Bartels as “an administrator”
who “at all relevant times” was “act[ing] as Principal.” R. Doc. 1,
at 5. Further, “because Title IX only prohibits discrimination by
federal grant recipients, a supervisory school official may not be
sued in his individual capacity, either directly under Title IX or
under § 1983 based upon a violation of Title IX.” Cox, 484 F.3d at
1066. Therefore, we treat Appellants’ § 1983 claim against Bartels as being against Bartels in his official capacity.

App. 14
“sometimes referred to as the ‘intentional torts exception.’ ” Id. (citation omitted). Whether this “intentional
torts” exception applies is a jurisdictional question
which we must decide before moving to the nonjurisdictional merits of Appellants’ PSTCA claim. Lambert
v. Lincoln Pub. Schs., 945 N.W.2d 84, 89 (Neb. 2020).6
“[W]hen a tort claim against the government seeks
to recover damages for personal injury or death stemming from an assault, the claim necessarily ‘arises out
of assault’ and is barred by the intentional tort [exception] under the PSTCA.” Edwards, 953 N.W.2d at 756.
In Edwards, the plaintiff brought a claim against the
county for its failure to promptly dispatch first responders via its 911 service which, the plaintiff alleged, allowed her to be sexually assaulted. See
generally id. The Nebraska Supreme Court held that
the county was immune because despite the plaintiff ’s
“artful pleading,” her sexual assault was an intentional
tort to which the PSTCA’s intentional tort exception
applied. Id. at 757. Similarly, here, the District and
Bartels are immune from tort liability under the
PSTCA because Appellants’ claim against them arises
out of Robeson’s sexual assault of LD. This sexual assault, like the assault examined in Edwards, is an intentional tort to which the PSTCA’s intentional tort
6

The district court found that the “discretionary function”
exception also applied because the District’s and Bartels’s decisions on which Appellants’ claims are premised were discretionary functions. R. Doc. 170, at 25. However, because we find that
the “intentional torts” exception applies here, rendering the District and Bartels immune from suit, we need not address this second possible exception.

App. 15
exception applies. Therefore, summary judgment in favor of the District and of Bartels was appropriate.
C.
Finally, the district court did not err in granting
summary judgment in favor of Bartels on Appellants’
aiding and abetting intentional infliction of emotional
distress claim. Under Nebraska law, to establish a
claim for intentional infliction of emotional distress, a
plaintiff must demonstrate:
(1) intentional or reckless conduct (2) that was
so outrageous in character and so extreme in
degree as to go beyond all possible bounds of
decency and is to be regarded as atrocious and
utterly intolerable in a civilized community
and (3) that the conduct caused emotional distress so severe that no reasonable person
should be expected to endure it.
Roth v. Wiese, 716 N.W.2d 419, 431 (Neb. 2006). Further, provided there is an underlying, actionable tort,
see, e.g., Salem Grain Co. v. Consol. Grain & Barge Co.,
900 N.W.2d 909, 924 (Neb. 2017), civil abetting liability
arises for “one who counsels, commands, directs, advises, assists, or aids and abets another individual in
commission of a wrongful act or tort,” see, e.g., Bergman v. Anderson, 411 N.W.2d 336, 340 (Neb. 1987). The
Nebraska Supreme Court employs the same lenient
aiding and abetting standard in civil tort claims as it
does in criminal actions: “mere encouragement or assistance” is sufficient to impose liability. Bergman, 411
N.W.2d at 341.

App. 16
Appellants brought an intentional infliction of
emotional distress claim against Robeson, and after
Robeson failed to enter an appearance or otherwise defend the claim, the district court entered a default
judgment against him. We accept as true, without deciding, Appellants’ claim that Robeson committed the
tort of intentional infliction of emotional distress. See,
e.g., Salem Grain Co., 900 N.W.2d at 924 (requiring an
underlying, actionable tort). However, Appellants have
presented no evidence that Bartels “encourage[d] or
assist[ed]” Robeson’s abuse of LD. See Bergman, 411
N.W.2d at 341. To the contrary, Bartels met with Robeson to express his concern about Robeson’s behavior;
required Robeson and LD to meet in the administrative offices, rather than in Robeson’s classroom, for all
mentoring sessions; contacted LD’s mother when he
learned that, as an 8th grader, LD was visiting the 7thgrade floor on which Robeson taught; contacted LD’s
father when he learned that LD and Robeson were absent on the same day; directed a school security officer
to visit Robeson’s classroom after receiving a report
that LD and Robeson were eating in the room with the
lights dimmed; and directed concerned faculty members to CPS after advising them that, if they suspected
abuse, they should report that abuse. Nothing in the
record, even when viewed in the light most favorable
to Appellants, indicates that Bartels encouraged or assisted Robeson in inflicting emotional distress on LD.
Therefore, the district court did not err in granting
summary judgment.

App. 17
III.
Appellants moved for a default judgment after
Robeson failed to file an answer or other responsive
pleading in the case, and in that motion, Appellants
renewed their jury demand. After entering a default
judgment against Robeson, the district court held a
hearing on the issue of damages without empaneling a
jury. The district court then awarded damages totaling
$1,249,540.41 to Appellants. Appellants now argue
that the district court erred by denying their jury demand on the issue of damages. “Whether a party has a
right to trial by jury in federal court is a question of
law subject to de novo review.” Ind. Lumberrnens Mut.
Ins. Co. v. Timberland Pallet & Lumber Co., 195 F.3d
368, 374 (8th Cir. 1999).
Appellants argue that they had a right to a jury
trial on the issue of damages following the default
judgment under both Federal Rule of Civil Procedure
55(b)(2) and the Seventh Amendment. However, Rule
55(b)(2) merely preserves “any federal statutory right
to a jury trial,” Fed. R. Civ. P. 55(b)(2), and Appellants
do not direct this Court to any federal statute creating
such a right. Moreover, we have previously explained
that “[i]t is a familiar practice and an exercise of judicial power for a court upon default, by taking evidence
when necessary or by computation from facts of record,
to fix the amount which the plaintiff is lawfully entitled to recover and to give judgment accordingly.” Stephenson v. El-Batrawi, 524 F.3d 907, 915 (8th Cir.
2008) (citation omitted). Rule 55(b)(2) entrusts the district court with the discretion to decide if a hearing on

App. 18
the issue of damages is necessary following default
judgment, and nothing in Rule 55(b)(2) mandates that
a jury determine the amount of damages, should the
district court elect to hold a hearing. See Fed. R. Civ. P.
55(b)(2).
Appellants also argue that the Seventh Amendment supplies this right, explaining that their battery
claim against Robeson is of the type of claim heard by
a jury at common law. See U.S. Const. amend. VII (preserving the right to trial by jury for “[s]uits at common law, where the value in controversy shall exceed
twenty dollars”). Even accepting that the underlying battery claim is of the type heard by a jury at common law,
we find that nothing in the Seventh Amendment’s language provides for a right to a jury trial on the issue of
damages following a default judgment. Appellants direct us to Parsons v. Bedford, Breedlove & Robeson, 28
U.S. (3 Pet.) 433 (1830), and Brown v. Van Braam, 3 U.S.
(3 Dall.) 344 (1797), in which the Supreme Court analyzed the Seventh Amendment, elaborating on its parameters. However, we find nothing in this case law to
suggest that a Seventh Amendment right to a jury on the
issue of damages following a default judgment exists.
Further, our sister circuits have uniformly found
that no right to a jury trial on the amount of damages
following entry of default judgment exists. See, e.g., Olcott v. Del. Flood Co., 327 F.3d 1115, 1124 (10th Cir.
2003); Sells v. Berry, 24 F. App’x 568, 571-72 (7th Cir.
2001) (per curiam); Goldman, Antonetti, Ferraiuoli,
Axtmayer & Hertell v. Medfit Int’l, Inc., 982 F.2d 686,
692 n.15 (1st Cir. 1993); Dierschke v. O’Cheskey (In re

App. 19
Dierschke), 975 F.2d 181, 185 (5th Cir. 1992); Adriana
Int’l Corp. v. Thoeren, 913 F.2d 1406, 1414 (9th Cir.
1990); cf. KCI USA, Inc. v. Healthcare Essentials, Inc.,
801 F. App’x 928, 936-37 (6th Cir. 2020) (cautioning
that default judgments infringe upon a litigant’s Seventh Amendment right and thus should be entered
sparingly); Wilson v. Volkswagen of Am., Inc., 561 F.2d
494, 503-04 (4th Cir. 1977) (same).
Therefore, after a searching review of the Federal
Rules of Civil Procedure, the Seventh Amendment, the
Supreme Court’s and this Court’s jurisprudence, and
our sister circuits’ decisions on this issue, we join many
of those circuits in finding that no right to a jury trial
on the issue of damages following a default judgment
exists. And because we find that this right does not exist, we also find that the district court did not err.
IV.
Finally, Appellants allege that the district court
erred by awarding $1,249,540.41 in damages because,
according to Appellants, that award was “inadequate.”
Appellants’ Br. 51. The amount of damages awarded is
a finding of fact, so our review of that award in a non
jury case is subject to a “clearly erroneous” standard of
review. See Gonzalez v. United States, 681 F.3d 949,
952 (8th Cir. 2012); see also Webb v. Arresting Officers,
749 F.2d 500, 501 (8th Cir. 1984) (“[W]e continue to adhere to the view that the inadequacy or excessiveness
of an award is basically a matter for the trial court. We
have intervened only in those rare situations where we
are pressed to conclude that there is ‘plain injustice’ or

App. 20
a ‘monstrous’ or ‘shocking’ result.” (citation omitted)).
This is an exacting standard, and we will not reverse
the district court unless we are “left with the definite
and firm conviction that a mistake has been committed.” United States v. Dock, 967 F.3d 903, 905 (8th Cir.
2020) (citation omitted).
Appellants have not offered anything that leaves
us with a “definite and firm conviction” that the district
court made a mistake in its damage award. See id.
Appellants rely primarily on out-of-circuit and unpublished cases, and they do not cite anything in the
record indicating the award was inadequate. Appellants point to evidence that LD will need therapy
throughout her life, as well as to the “risks for difficulties in adult relationships, parent-child relationships,
and other interactions” LD will face in adulthood. Appellants’ Br. 51. We accept Appellants’ position that
Robeson’s abuse may have a lasting effect on LD, but
absent any explanation as to how or why the district
court’s damage award was clearly erroneous, we will
not upend that award. Therefore, we find that the district court did not err. Additionally, for the reasons discussed supra Section III., we do not find persuasive
Appellants’ argument that the district court erred because the issue of damages “should have been determined by a jury.” Appellants’ Br. 51.
V.
For the reasons discussed above, we affirm.

App. 21
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
KD, PARENT, NATURAL
GUARDIAN AND NEXT
FRIEND OF LD; AND JD,
PARENT, NATURAL
GUARDIAN AND NEXT
FRIEND OF LD;

8:17CV285
MEMORANDUM
AND ORDER
(Filed Nov. 1, 2019)

Plaintiffs,
vs.
DOUGLAS COUNTY
SCHOOL DISTRICT NO. 001,
DANIEL BARTELS,
BRIAN ROBESON,
JOE DOE, AND JANE DOE,
Defendants.
This matter is before the Court on the Motions for
Summary Judgment filed by Defendant Douglas
County Public School District No. 001, a/k/a Omaha
Public Schools (OPS), ECF No. 124, and Defendant
Daniel Bartels, ECF No. 132. Also before the Court
are Plaintiffs’ Motion in Limine, ECF No. 148, and Defendants’ Joint Objection to the Magistrate Judge’s
Preliminary Pretrial Order, ECF No. 167. The Motions
for Summary Judgment will be granted and the Motion in Limine and Objection will be denied as moot.

App. 22
BACKGROUND
The following facts are those stated in the parties’
briefs, supported by pinpoint citations to admissible
evidence in the record, in compliance with NECivR
56.11 and Federal Rule of Civil Procedure 56. The
Court has also drawn from the parties’ joint statement
of uncontroverted facts.
I.

The Parties

Plaintiff LD was a student in her 7th and 8th
Grade years in OPS at Alfonza Davis Middle School
(“Davis Middle School”) from August 14, 2013, through
May 22, 2015. The 2013-14 school year was the first
year that Davis Middle School was open. LD attended
Marian High School beginning in the fall semester
2015 as a freshman and graduated with honors in May
2019. At Marian High School, LD was a member of the
National Honor Society, Mu Alpha Theta Math Society,
the Quill & Scroll journalism honorary society, and
1

See NECivR 56.1(b)(1):
The party opposing a summary judgment motion
should include in its brief a concise response to the
moving party’s statement of material facts. The response should address each numbered paragraph in
the movant’s statement and, in the case of any disagreement, contain pinpoint references to affidavits,
pleadings, discovery responses, deposition testimony
(by page and line), or other materials upon which the
opposing party relies. Properly referenced material
facts in the movant’s statement are considered admitted unless controverted in the opposing party’s response.

App. 23
participated in various clubs and sports. Plaintiffs KD
and JD are LD’s parents. MD is LD’s older sister and
was three grades ahead of LD in school. ND is LD’s
younger sister.
OPS is a political subdivision and school district.
Daniel Bartels is an administrator employed by OPS
and during the relevant time was Principal of Davis
Middle School.
Defendant Brian Robeson was formerly employed
by OPS and taught at Davis Middle School. OPS interviewed Robeson and received satisfactory written references for him before he was hired. Robeson disclosed
on his application that he had a DUI, which did not
disqualify him from teaching, because he was not being
hired to drive students.2 Before hiring Robeson, OPS
checked the child abuse registry, which showed no entries for Robeson, and checked for criminal background
through a private agency. By 2006, Robeson had a Master of Science Degree in Elementary Education with a
concentration in math and science.
Robeson taught from August 2003 to 2013 at
OPS’s Prairie Wind Elementary School and received
satisfactory evaluations. He taught sixth grade for several years. In 2013, he transferred from Prairie Wind
Elementary to Davis Middle School, because Prairie
Wind Elementary was eliminating its 6th Grade. After
2

At OPS, criminal convictions were not a bar to employment,
but were considered only in relation to specific job requirements.
A DUI was not an automatic basis for termination of a teacher as
long as he or she fulfilled the duties of the job.

App. 24
transferring, Robeson taught 7th Grade pre-algebra
and algebra, and a “Take Flight Class.” Bartels did not
know Robeson until he was assigned to teach at Davis
Middle School. Robeson’s classroom was Room 150,
which was the first classroom in the 7th Grade wing of
the school. In 2013-14, Robeson taught algebra to LD.
She was also in Robeson’s “Take Flight Class.” Robeson
was not LD’s teacher in 2014-15 when she was in 8th
Grade.
II.

Overview of OPS Policies

The OPS Board of Education (BOE) has the power
to hire, suspend and terminate teachers. Neb. Rev.
Stat. § 79-827. In order to exercise its rights and duties, the BOE prepared and published policies and
regulations covering organization, policies, and procedures of the school system. OPS had policies in effect
for the 2013-15 school years which prohibited sexual
harassment and provided a complaint system for the
reporting of sexual harassment.
During the relevant time, no formal OPS policies
prohibited teachers from hugging students or being
alone in a classroom with a student. Yet OPS had specific policies related to employee-to-student harassment, teacher boundaries, reporting of suspected child
abuse, and educator misconduct. These policies were
included in several publications distributed to principals, teachers, and other employees.
OPS had a specific policy regarding teacher
boundaries, independent of the employee-to-student

App. 25
harassment policy, including guidelines for electronic
communication, romantic relationships, gift giving,
special treatment, and other signs of grooming. The
policy made clear that students cannot consent to such
conduct. In the 2013-14 school year, OPS implemented
district-wide training for all staff regarding prevention
of adult sexual misconduct and reporting of child abuse
and neglect. OPS refreshed the training annually.
The OPS Department of Student and Community Services periodically issued “Intercommunications
Memos” to Principals, Assistant Principals, Deans of
Students, Counselors, and others regarding “Reporting
of Abuse and Neglect,” which also included procedures
for reporting harassment and abuse. Recipients were
instructed to review the reporting procedures with all
staff. For the 2014-15 and 2015-16 school years, OPS
distributed a “Principal Packet” to all district principals. The Principal Packet included a memo with flow
charts for the reporting of harassment. Principals were
to review the procedures in a staff meeting at the beginning of each school year.
The Davis Middle School Student Handbooks for
2013-14 and 2014-15 included a definition of sexual
harassment. The Handbooks also described the process for reporting sexual harassment by an employee
or visitor, the options and process for reporting abuse
and neglect, and the phone number for the Assistant
Superintendent for Student and Family Services. The
policies applied to all school-sponsored activities
on or off campus, and included an explanation of

App. 26
confidentiality, a prohibition of retaliation, and an appeal process.
The parties agree that the OPS superintendent
had primary responsibility for enforcing school policies
for teachers. The superintendent delegated that responsibility to OPS Human Resources and school principals, depending on the situation and the context.
Principals enforced policies with the support of Human
Resources. Bartels considered it his job to investigate
reports of misconduct and to use his discretion and
skills as a principal to determine whether reports were
substantiated.
III. Reports of Robeson’s Behavior During the
2013-14 School Year
In August 2013, Counselor Jen Walker reported
to Bartels that staff members, herself included, witnessed Robeson hugging many students, male and female. Bartels Dep. 57:24–58:16, 58:20–62:1, ECF No.
128-1. Bartels responded by coaching Robeson on
proper interactions with students, including a physical
demonstration of how to use a side hug and high five.
Bartels Dep. 40:19 – 41:5, ECF No. 128-1.
Later in the 2013-14 school year, teacher Christine
Jurgens spoke to Bartels about Robeson giving prolonged hugs to students, not including LD. Jurgens
stated that she and Bartels together once observed
Robeson give a prolonged hug. Jurgens Dep. 50:24–
53:7, ECF No. 128-5. Bartels responded by having a

App. 27
discussion with Robeson which stopped the hugging
for a few days.
LD transferred from the Westside School District
to OPS for her 7th Grade year. She had been reluctant
to attend Davis Middle School because she would miss
her friends. She was randomly assigned to Robeson’s
“Take Flight Class” in 7th Grade and was transferred
from pre-algebra to algebra as a result of placement
testing and her parents’ request. Robeson was the only
algebra teacher at Davis Middle School. Robeson knew
LD and her family because they attended the same
church.
On April 23, 2014, Bartels was informed that
Robeson was mentoring LD in his classroom. Bartels
told Robeson to stop immediately and explained that
Robeson needed to seek permission from LD’s parents.
Robeson told Bartels that LD’s parents wanted Robeson to mentor her. At some point, LD’s parents gave
permission for Robeson to have lunchtime meetings
with LD outside the classroom. The lunches were to
take place somewhere in the administrative office
area.
IV. Reports of Robeson’s Behavior During the
2014-15 School Year
Early in September 2014, Instructional Facilitator
Jennie Meyer reported that LD, now in 8th Grade, and
several of her friends were going to the 7th Grade floor.
Later in the fall of 2014, Meyer reported that she saw
LD in Robeson’s classroom with the door open. Because

App. 28
LD was crying, Assistant Principal Amy Ellis went to
the classroom and inquired why LD was at that location and why she was crying. Robeson responded that
LD was okay and on her way to class. Ellis suggested
that LD see a counselor, but LD went on to her class.
On October 20, 2014, LD spoke to Walker about
the way counselor Chris Johnson looked at her. Later,
Walker spoke to Bartels and to LD’s mother to address
the situation. Bartels visited with Johnson.
In November 2014, Bartels walked by Robeson’s
classroom and observed Robeson and LD eating lunch
in his classroom with the door open. Bartels asked
them what they were doing, and both responded they
were having lunch and doing their mentoring. Bartels
reminded them that mentoring needed to take place in
the administrative office. Later that day, Bartels met
with Robeson and reminded him that it was his responsibility as a mentor to make sure mentoring occurred in the office, and not his classroom. Later that
semester, Bartels gave permission for the mentoring to
take place in the conference room next to the principal’s office, provided that the door was open and both
Robeson and LD could be viewed from the hallway.
Sometime in late winter of the 2014-15 school
year, likely February 2015, Walker, informed Bartels
that a coach3 saw Robeson tie LD’s shoe in the hallway
by the girl’s locker room when other athletes and

3

The coach did not want to be identified and Walker did not
give the coach’s name.

App. 29
coaches were present. Bartels asked Robeson about the
incident and he denied it happened.
On March 4, 2015, an unsigned handwritten note
was left in Bartels’s mailbox. It said, paraphrased, “I
find it curious that LD is absent on the same day as
Mr. Robeson.” Bartels Dep. 82:25–83:18, ECF No. 1281. Bartels discussed the note with Assistant Principal
Amy Ellis but they could not identify the author from
the handwriting. The note was discarded. On the same
day, Bartels called LD’s father to verify LD’s absence.
LD’s father informed Bartels that LD was home ill.
In April 2015, paraprofessional Chantalle Galbraith reported that she saw Robeson grab LD’s phone
from her back pocket. Galbraith was concerned because staff had just received training about possessing
student property. Bartels asked Robeson to explain
what happened. Robeson’s report was consistent with
Galbraith’s. Bartels warned Robeson not to engage in
that type of conduct.
Later in the spring of 2015, Galbraith saw Robeson hug4 LD in the hallway and saw him eating lunch
with LD in his classroom, with the door closed and
lights dim. In response, Bartels instructed the security
4

Plaintiffs’ statement of this incident implies that Gailbraith saw LD and Robeson hugging in Robeson’s darkened classroom. Defendants do not dispute this account in their joint reply
but the Plaintiffs’ description is unsupported. The lone reference
to this fact is “SOF 127” but Statement of Fact 127 is inconsistent
with Plaintiffs’ characterization. It states that Gailbraith witnessed a hug outside the classroom. Gailbrath’s deposition does
not support Plaintiffs’ statement.

App. 30
guard to walk by Robeson’s classroom. The security
guard reported that no one was in the classroom. Nevertheless, Bartels advised Robeson that his conduct
was inappropriate and counseled him about proper interactions with students.
On May 1, 2015, Rebecca Stichler, special education resource teacher, emailed Walker, stating: “I am
concerned with [LD] and the amount of time that she
is spending with Mr. Robeson, her mentor. I am thinking if she needs this much support from him, she
should be receiving support or help beside what he can
offer her. I meant to catch you earlier.” ECF No. 12721; Bartels Dep. 253:24 – 254:7, ECF No. 128-1. Walker
responded later that day, stating: “I agree that is a concern. I have worked with her a little bit on some friendship issues but have not seen her lately. I will call
[LD’s] family and offer some additional resources.”
ECF No. 127-21. Bartels was copied on Walker’s response. Walker also informed Bartels that she had noticed LD in Robeson’s classroom and in the hallway
outside that room very frequently in the week before
May 1, 2015. Bartels understood that Walker contacted LD’s parents to discuss the activity. Bartels
Dep. 22:12–23:1, 42:14–19, ECF No. 128-1.
Friday, May 22, 2015, was the last day of school for
students and the day before Memorial Day weekend.
On that day, Stichler observed Robeson touch female
students and saw him give a “full frontal” hug, chest to
chest, with both arms around a female student’s body,
for approximately 60 seconds. Robeson also kissed a
female student on her head. Stichler reported her

App. 31
observations to Bartels. That night, Bartels emailed
Stichler, thanking her for sharing her concerns and
stated “In addition, if you believe there is wrong doing
you probably need to call cps [Child Protective Services] let me know if you do so I can do what I need to
do with the information. ECF Nos. 127-23, 127-24.
Stichler contacted CPS about the hug and also reported “other behaviors I have seen this school year between [Robeson] and one female student in particular,
[LD]. . . . I have observed him poking her in the stomach in a hallway as well as touching her shoulder as if
he was giving her a massage. The two spend quite a bit
of time together.” ECF No. 127-28. CPS told Stichler
they would forward her report to the Omaha Police Department (OPD).
On May 26, 2015, Bartels spoke to Robeson and
informed him that he had a picture of him hugging a
student taken on May 22, 2015. Robeson said he was
going to talk to Stichler about it. Bartels advised
Robeson not to talk to Stichler. Robeson told Bartels
that the student was crying, and she wanted a hug
from him after school. Bartels told him that was inappropriate, and he needed to give a side hug if any hug
at all. Later that day, Bartels notified Robeson that the
incident had been reported to OPS Human Resources.
Bartels also admonished Robeson for attempting to
confront Stichler.
OPS Human Resources investigated Robeson for
the May 2015 hugging incident. That department concluded that Robeson showed inappropriate behavior
and needed to have expectations set for him. OPS did

App. 32
not contact the student involved or any parents. OPD
and CPS decided not to investigate the incident. OPS
Human Resources instructed Bartels to complete an
employee consultation conference with Robeson and
set specific expectations. Bartels conducted the conference on June 2, 2015.
V.

Reports During the 2015 School Year and
Robeson’s Arrest

On December 5, 2015, Jurgens reported to Bartels
that Robeson appeared to be sending excessive emails
to a former student, MB, a current 9th grader at Northwest High School, using OPS email. Bartels called
Shawn Hall at OPS Human Resources and reported
that a teacher had seen many emails between Robeson
and a former student. On December 7, 2015, Shawn
Hall had the OPS IT department pull emails between
Robeson and the former student and reviewed them.
On December 8, 2015, Hall informed Bartels there
would be an HR response to the emails and that he
would be working with Chief Human Resources Officer
Charles Wakefield.
Hall reviewed over 100 emails between Robeson
and MB from August 18 through November 17, 2015.
The emails were sent during the school day. Most
were mundane, but Robeson used several terms that
Human Resources deemed inappropriate including
“sweetheart” or “atta baby.” Robeson also stated that
he missed MB, and said, “I am here for you whenever
and however you need me to be . . . always” and “[y]ou

App. 33
need more entertainment in your life.” On or about
December 11, 2015, Hall and Kevin Johnson met with
Robeson and his union representative to discuss the
emails as a violation of Board Policy. Robeson was instructed to cease sending such emails.
The second quarter of the 2015-16 school year
ended December 18, 2015, and the winter break began
on December 21, 2015. OPS Human Resources was in
the process of considering further disciplinary action
against Robeson when, on December 29, 2015, OPS
was notified of Robeson’s arrest for sexual assault of
LD. On or about December 30, 2015, OPS cancelled
Robeson’s teaching contract. On the same day, OPS
hand-delivered a letter informing Robeson of the recommendation of cancellation and informing him of his
rights. After the arrest, OPS deferred its investigation
of Robeson to OPD and supported them in their investigation.
On January 1, 2016, Bartels printed an email
dated April 21, 2014, from Robeson. When printing out
the email, Bartels discovered five pages of dialogue between Robeson and LD. Bartels did not notice the dialogue at the time he initially received the email
because he viewed it on his phone and thought it contained only two pictures from a field trip Robeson took
with students on Saturday, April 21, 2014. Bartels received the email from Robeson in response to Bartels’s
request for pictures of the field trip.

App. 34
VI. Robeson’s Sexual Harassment of LD
LD hid her relationship with Robeson and was not
aware of anyone else having any knowledge of their
sexual relationship. LD did not report Robeson to anyone at Davis Middle School. Neither LD nor her parents ever contacted Bartels regarding any concerns
about Robeson.
The physical relationship between Robeson and
LD began in September 2014 when they had their first
kiss at a creek near LD’s home on a teacher work day
when students were out of school. Most of the sexual
activity between Robeson and LD occurred during LD’s
8th Grade year. The two would meet during lunch several times a week in Robeson’s classroom. Much of the
activity occurred in a corner of the classroom near a
cupboard that was tall enough to obscure LD if someone came into the classroom.
The sexual activity continued into the summer between LD’s 8th Grade year and her high school freshman year, and into fall of 2015, after she entered high
school. To hide her relationship with Robeson, LD used
multiple email addresses and often changed passwords
so her mother did not know them. LD deleted messages
right after she sent them. LD hid her relationship with
Robeson from her sisters and from people at school.
Robeson’s conduct toward LD was discovered on
December 27, 2015, when he was caught inside the residence of KD and JD. This led to Robeson’s arrest and
conviction for first degree sexual assault. Robeson is

App. 35
presently serving a 40-year sentence of incarceration
in the Nebraska Penal and Correctional Complex.
STANDARD OF REVIEW
“Summary judgment is proper ‘if the pleadings,
the discovery and disclosure materials on file, and any
affidavits show that there is no genuine issue as to any
material fact and that the movant is entitled to judgment as a matter of law.’ ” Cottrell v. Am. Family Mut.
Ins. Co., S.I., 930 F.3d 969, 971 (8th Cir. 2019) (quoting
Torgerson v. City of Rochester, 643 F.3d 1031, 1042 (8th
Cir. 2011) (en banc)); see also Fed. R. Civ. P. 56(c) (“ ‘A
party asserting the fact cannot be or is genuinely disputed must support the assertion by: citing to particular
parts of materials in the record, including depositions,
documents, electronically stored information, affidavits or declarations, stipulations[,] . . . admissions, interrogatory answers, or other materials. . . .’ ”). A
genuine issue of material fact arises “if each party has
supplied some evidence that is sufficient for a reasonable jury to return a verdict for the nonmoving party”.
Cottrell, at 930 F.3d at 971 (citing Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986)).
“The moving party bears the burden of showing
‘that there is no genuine dispute as to any material fact
and [it] is entitled to judgment as a matter of law.’ ”
Vandewarker v. Cont’l Res., Inc., 917 F.3d 626, 629 (8th
Cir. 2019) (quoting Fed. R. Civ. P. 56(a)). The moving
party can satisfy its burden in two ways: (1) by producing evidence negating an essential element of the

App. 36
nonparty’s case; or (2) “by ‘showing’ . . . that there is an
absence of evidence to support the nonmoving party’s
case.” Bedford v. Doe, 880 F.3d 993, 996 (8th Cir. 2018)
(quoting Celotex Corp. v. Catrett, 477 U.S. 317, 325
(1986)).
In response to the moving party’s showing, the
nonmoving party must produce evidentiary materials
of “specific facts showing the presence of a genuine issue for trial.” Id. (quoting Torgerson, 643 F.3d at 1042).
“The nonmoving party must do more than raise some
metaphysical doubt about the material facts and cannot rest on mere denials or allegations.” Id. (citing
Torgerson, 643 F.3d at 1042; Gibson v. Am. Greetings
Corp., 670 F.3d 844, 853 (8th Cir. 2012)); see also Dick
v. Dickinson State Univ., 826 F.3d 1054, 1061 (8th Cir.
2016) (“[T]here must be more than ‘the mere existence
of some alleged factual dispute’ between the parties in
order to overcome summary judgment.”) (emphasis in
original) (quoting Vacca v. Viacom Broad. of Mo., Inc.,
875 F.2d 1337, 1339 (8th Cir. 1989)).
“At summary judgment, the court’s function is not
to weigh the evidence and determine the truth of the
matter itself, but to determine whether there is a genuine issue for trial.” Smith v. Kilgore, 926 F.3d 479, 483
(8th Cir. 2019) (quoting Schilf v. Eli Lilly & Co., 687
F.3d 947, 948 (8th Cir. 2012)); see also Bedford, 880 F.3d
at 996 (“A principal purpose of the summary-judgment
procedure ‘is to isolate and dispose of factually unsupported claims or defenses. . . .’ ”) (quoting Celotex, 477
U.S. at 323–24). Accordingly, in reviewing a motion for
summary judgment, the Court will “view[ ] the record

App. 37
in the light most favorable to [the nonmoving party]
and draw[ ] all reasonable inferences in [that party’s]
favor.” Hanson ex rel. Layton v. Best, 915 F.3d 543, 547
(8th Cir. 2019) (quoting Krout v. Goemmer, 583 F.3d
557, 564 (8th Cir. 2009)). “ ‘Where the record taken as
a whole could not lead a rational trier of fact to find
for the nonmoving party, there is no genuine issue for
trial,’ and summary judgment is appropriate.”
Vandewarker, 917 F.3d at 629 (quoting Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587
(1986)).
DISCUSSION
Plaintiffs assert six claims for relief: (1) violation
of Title IX of the Education Amendments of 1972, 20
U.S.C. § 1681 et. seq. (“Title IX”) against OPS; (2) violation of constitutional rights under 42 U.S.C. § 1983
against Bartels and Robeson; (3) negligence against
OPS and Bartels under the Nebraska Political Subdivisions Tort Claims Act (“NPSTCA”), Neb. Rev. Stat.
§ 13-901 et. seq.; (4) battery against Robeson; (5) intentional infliction of emotional distress against Robeson;
and (6) aiding and abetting intentional infliction of
emotional distress against Bartels. The matters before
the Court are the Title IX claim against OPS; the
§ 1983 claims against Bartels; the negligence claim
against OPS and Bartels; and the aiding and abetting
claim against Bartels.5
5

Plaintiffs’ claims against the Doe Defendants will be dismissed because Plaintiffs have not filed an amended complaint

App. 38
I.

Title IX

The Supreme Court has recognized an implied private right of action under Title IX and “a school district
can be held liable in damages in cases involving a
teacher’s sexual harassment of a student.” Gebser v.
Lago Vista Indep. Sch. Dist., 524 U.S. 274, 280-81
(1998) (citation omitted). Title IX provides that “[n]o
person in the United States shall, on the basis of sex,
be excluded from participation in, be denied the benefits of, or be subjected to discrimination under any education program or activity receiving federal financial
assistance.” 20 U.S.C. § 1681(a). To succeed on their Title IX claim, Plaintiffs must prove that OPS was “(1)
deliberately indifferent (2) to known acts of discrimination (3) which occur[red] under its control.” K.T. v.
Culver-Stockton Coll., 865 F.3d 1054, 1057 (8th Cir.
2017) (citing Ostrander v. Duggan, 341 F.3d 745 (8th
Cir. 2003)). Here, the third element is met because a
teacher who sexually harasses a student is deemed to
be under the school district’s control. See Davis Next
Friend LaShonda D. v. Monroe Cty. Bd. of Educ., 526
U.S. 629, 643 (1999). However, a school district is not
liable for “damages under Title IX for a teacher’s sexual harassment of a student absent actual notice and
deliberate indifference.” Gebser, 524 U.S. at 292-293.
Plaintiffs have not produced enough evidence to raise
a genuine issue of material fact as to the elements of
actual knowledge and deliberate indifference.

identifying the Doe Defendants. Robeson has not entered an appearance.

App. 39
A. Actual Knowledge of Acts of Harassment
The “actual knowledge” element has a “credibility
component” and a “severity component.” See Thomas v.
Bd. of Trustees of the Nebraska State Colleges, No. 8:12CV-412, 2015 WL 4546712, at *10 (D. Neb. July 28,
2015), aff ’d, 667 F. App’x 560 (8th Cir. 2016). Under the
credibility component, actual knowledge of harassment cannot be established by rumors, familiar behavior, prior investigations, and vague complaints. See Doe
v. Flaherty, 623 F.3d 577, 585 (8th Cir. 2010); Plamp v.
Mitchell Sch. Dist. No. 17-2, 565 F.3d 450, 457 (8th Cir.
2009); Shrum ex rel. Kelly v. Kluck, 249 F.3d 773, 780
(8th Cir. 2001).
In Doe v. Flaherty, the Eighth Circuit granted
summary judgment to the school, finding insufficient
evidence of actual knowledge of a sexual relationship
between a teacher and student. 623 F.3d at 585-586. A
minor student (Doe) engaged in a sexual relationship
with the school’s basketball coach (Smith). Id. at 580.
School administrators knew of previous parental complaints that Smith sent inappropriate text messages to
female students and that he specifically sent messages
to Doe.6 Id. at 585. The superintendent also learned
that Doe may have had a crush on Smith and spent
time with Smith in the gym. Id. at 581, 585. The school

6

The text messages included the statements “Are you drunk
yet?” and “OMG you look good today.” Id. at 585. Even though
there was some dispute as to whether the teacher, Smith, sent the
messages at issue, the court concluded that even the most suggestive texts failed to provide notice of sexual conduct or abuse. Id.

App. 40
principal also was told that “something was going on”
with Doe and Smith. Id. at 585.
The court concluded that this evidence was insufficient to suggest a substantial risk of sexual misconduct. Id. The content of the messages did not suggest
sexual conduct or sexual abuse. Id. The “vague inquiry”
about “something” going on was insufficient to give actual notice to the principal of Smith’s sexual abuse. Id.
None of the evidence implied physical contact between
Smith and Doe, and a reasonable investigation uncovered no evidence to substantiate the suspicions. Id.
Thus, the court concluded that “[g]iven the stringent
standard for supervisory liability in this context, we
conclude that no reasonable jury could find actual notice on those alleged facts.” Id.; see also Shrum ex rel.
Kelly v. Kluck, 249 F.3d 773, 780 (8th Cir. 2001) (no actual knowledge where school district “was aware of rumors, investigations, and student statements, but did
not possess any conclusive proof ” of actual molestation
while employed).
Similarly, in P.H. v. Sch. Dist. of Kansas City, Missouri, 265 F.3d 653, 662 (8th Cir. 2001), a teacher (Hopkins) and minor student (P.H.) had a two-year sexual
relationship, both on and off school grounds. Id. at 662.
Other teachers complained to school administrators
that Hopkins was spending an inordinate amount of
time with P.H., resulting in absences, tardiness, and
failing grades. Id. at 659, 662. The school also received
complaints that Hopkins showed favoritism to some
students, including P.H. Id. at 662-63. When the principal confronted Hopkins about the complaints,

App. 41
Hopkins explained that P.H. was involved in many of
the activities he oversaw, so he naturally spent more
time with her than other students. Id. P.H. also hid the
relationship and did not complain about sexual misconduct until the relationship ended. Id. at 660. The
court found that, while Hopkins’s actions and excessive
time spent with P.H. were “cause for concern,” id. at
659, the evidence was insufficient to establish actual
knowledge of sexual misconduct under Title IX. Id. at
663.
Here, Plaintiffs claim Bartels and OPS had actual
knowledge of Robeson’s sexual misconduct based on 14
individual complaints. Some of those complaints, however, did not involve LD. For example, Plaintiffs allege
that in 2013 and 2014, several teachers observed Robeson hugging male and female students, some for prolonged periods of time; and in February 2015,
paraprofessional Keri McCoy reported to Bartels that
she saw girls congregating near Robeson’s classroom.
None of these reports involved LD and they were not
sufficient to give actual notice of sexual harassment.
Other complaints were not reported to Bartels or OPS.
For example, in April 2014, Robeson participated in a
Saturday field trip to the Millard Airport with his Take
Flight Class students. There, he kissed LD’s forehead
while they were participating in a group hug with several female students. LD Dep. 168:3-17, ECF No. 1272. At a Glo Run activity in May 2014, LD’s mother witnessed Robeson pick LD up, throw her onto his shoulder, and cross a finish line. KD Dep. 87:14-88:6, ECF
No. 127-33. These complaints did not provide actual

App. 42
notice of sexual harassment because there is no evidence they were reported to Bartels or any other OPS
official.
According to Plaintiffs, Bartels received specific
reports about the following instances of Robeson’s behavior toward LD.
•

In April 2014, Bartels learned Robeson was mentoring LD in his classroom during lunch breaks.

•

On several occasions in September 2014, instructional facilitator Jennie Meyer observed LD leave
the 8th Grade floor to meet Robeson in his classroom during passing periods.

•

In February 2015, staff reported to Bartels that
Robeson tied LD’s shoelace in the hallway near the
girl’s locker room.

•

On March 4, 2015, Bartels received an unsigned,
handwritten note that read, “I find it curious that
LD is absent on the same day as Mr. Robeson.”

•

On May 1, 2015, special education resource
teacher Rebecca Stichler emailed school counselor
Jennifer Walker stating she was concerned with
the amount of time LD spent with Robeson.

None of these reports or complaints gave actual
notice of sexual abuse. Like the evidence in Flaherty
and P.H., these complaints did not suggest there was
physical contact between Robeson and LD. Like the
“vague inquiry” in Flaherty, the unsigned, unsubstantiated note about a curious observation was insufficient to confer actual notice. Like the facts in P.H.,
complaints about excessive amounts of time or

App. 43
favoritism are insufficient to confer actual notice. And
like the victim in P.H., LD hid her relationship about
Robeson and did not report sexual misconduct until
Robeson was arrested. While Robeson’s actions and excessive attention were cause for concern, the evidence
was insufficient to establish actual knowledge of sexual misconduct for purposes of Title IX.
Plaintiffs also suggest that Bartels had notice of
the relationship between LD and Robeson due to Robeson’s email of April 21, 2014. Bartels asked Robeson to
send photos of a field trip, and Robeson complied. Attached to the photos were several pages of text messages between Robeson and LD. In the messages,
Robeson lamented that he would not move grades with
LD; he spoke of their “relationship;” and he told her
that he planned to see her at least once a week in the
next school year. While Bartels admitted that the messages would be cause for alarm, it is undisputed that
Bartels did not see the messages when Robeson sent
the email and did not read them until after Robeson
had been arrested. Moreover, although the messages
were highly inappropriate, like the inappropriate messages in Flaherty, the content of the messages did not
describe sexual conduct or abuse. Accordingly, the unread messages were insufficient to convey actual
knowledge.
B. Deliberate Indifference
A response to reports of actual harassment
demonstrates deliberate indifference only when the

App. 44
response is clearly unreasonable. Davis, 526 U.S. at
648; see also Gebser, 524 U.S. at 290 (equating deliberate indifference standard under Title IX to deliberate
indifference standard under 28 U.S.C. § 1983). Deliberate indifference is “stringent standard of fault that
cannot be predicated upon mere negligence.” Flaherty,
623 F.3d at 584 (citing Shrum, 249 F.3d at 780) (internal quotation marks omitted).
When assessing deliberate indifference under Title IX, courts must examine the adequacy of the response in light of the “seriousness and credibility of the
compliant that puts school officials on notice.” Doe v.
Gooden, 214 F.3d 952, 955 (8th Cir. 2000). “Actions and
decisions by officials that are merely inept, erroneous,
ineffective, or negligent do not amount to deliberate indifference.” Doe on Behalf of Doe v. Dallas Indep. Sch.
Dist., 153 F.3d 211, 219 (5th Cir. 1998). A response is
not deliberately indifferent unless it amounts to “an official decision by [school officials] not to remedy the violation.” Gebser, 524 U.S. at 290. For example, in
Kinman v. Omaha Pub. Sch. Dist., 171 F.3d 607, 610
(8th Cir. 1999), OPS, through one of its principals, became aware of a sexual relationship between a teacher
and student. The court concluded that OPS and the
principal did not act with deliberate indifference because they did not “turn a blind eye and do nothing.”
Id. Instead, they investigated the allegations and initiated termination proceedings “once they obtained
conclusive proof of that relationship.” Id. Accordingly,
OPS and the principal were entitled to judgment as a
matter of law. Id.

App. 45
Similarly, in this case, OPS and Bartels did not
turn a blind eye to the allegations against Robeson.
When Galbraith reported that she saw Robeson grab
LD’s phone from her back pocket, Bartels responded by
investigating and warning Robeson not to engage in
that type of conduct. Bartels Dep. 105:6-107:3, ECF No.
128-1. When Galbraith witnessed Robeson hug7 LD in
the hallway and saw Robeson eating lunch with LD in
his classroom, with the door closed and lights dim, Bartels responded by investigating whether LD and Robeson were in the classroom. Although no one was in the
classroom at the time of the security check, Bartels advised Robeson that such conduct was inappropriate. In
light of the facts he knew at the time, Bartels’s response was not deliberately indifferent.
Bartels also did not act with deliberate indifference to generalized reports of Robeson’s relationship
with LD. When Stichler expressed concern via email to
Walker about the amount of time Robeson spent with
LD, Bartels was copied on Walker’s response that she
would contact LD’s parents to discuss the activity.
Bartels Dep. 22:12 – 23:1, 42:14–19, ECF No. 128-1.

7

Plaintiffs’ statement of this incident implies that Gailbraith saw LD and Robeson hugging in Robeson’s darkened classroom. Defendants do not dispute this account in their joint reply
but the Plaintiffs’ description is unsupported. The lone factual
reference to this fact is “SOF 127” but Statement of Fact 127 is
inconsistent with Plaintiffs’ characterization. It states that Gailbraith witnessed a hug outside the classroom. Gailbrath’s deposition does not support Plaintiffs’ statement.

App. 46
Bartels received notice of Stichler and Walker’s concerns and of their plans to resolve them.
When Stichler observed Robeson inappropriately
touching female students and giving a hug to a female
student, Bartels advised Stichler to consider contacting child protective services. Stichler contacted CPS,
and CPS declined to investigate. OPS responded by requiring Robeson to go through counseling and discipline. Based on facts known at the time, the response
was not deliberately indifferent.
In sum, there is no evidence that Bartels or OPS
knew the nature of Robeson’s misconduct or responded
with deliberate indifference. Accordingly, OPS is entitled to judgment as a matter of law on Plaintiffs’ Title
IX claims.
II.

Claims Against Bartels Under § 1983

Suits against school officials in their official capacity are treated as suits against the school district itself.
Kinman v. Omaha Pub. Sch. Dist., 171 F.3d 607, 609
(8th Cir. 1999). “[I]n order to sue a public official in his
or her individual capacity, a plaintiff must expressly
and unambiguously state so in the pleadings, otherwise, it will be assumed that the defendant is sued only
in his or her official capacity.” Alexander v. Hedback,
718 F.3d 762, 766 n.4 (8th Cir. 2013) (citing Johnson v.
Outboard Marine Corp., 172 F.3d 531, 535 (8th Cir.
1999)).

App. 47
Plaintiffs’ § 1983 claims no not expressly or unambiguously state that Bartels is sued in his individual
capacity. Plaintiffs’ second claim alleges Bartels violated LD’s constitutional rights to due process, including the “right to be free from deliberate indifference” of
Bartels and others “about reports of sexual harassment by a public school teacher against a student
based on her gender.” Complaint ¶¶ 20.4, 50, ECF No.
1. In paragraph 52, Plaintiffs “request relief as authorized by 42 U.S.C. §§ 1983, 1988” and “seek general and
special damages against the individuals sued.” However, Plaintiffs fail to expressly indicate, in either the
caption or elsewhere, whether Bartels is being sued in
his individual capacity.
Even if the Complaint could be construed as a suit
against Bartels in his individual capacity, the § 1983
claim must be dismissed. Under Eighth Circuit precedent, “[a] supervisory school official may not be sued in
his individual capacity, either directly under Title IX
or under § 1983 based upon a violation of Title IX.”
Cox v. Sugg, 484 F.3d 1062, 1066 (8th Cir. 2007); see
also Jenkins v. Univ. of Minnesota, 131 F. Supp. 3d 860,
878 (D. Minn. 2015), aff ’d, 838 F.3d 938 (8th Cir. 2016).
Although pled under § 1983, the Complaint relies expressly on Title IX’s standard of proof. See Complaint
¶¶ 20.1, 20.4, 23, ECF No. 1 (alleging violations under
§ 1983 based on “deliberate indifference by public
school administrators about reports of sexual harassment.”). Further, because Plaintiffs’ § 1983 claims are
based on the alleged Title IX violations, they must be
examined under the same standard as Title IX. See Doe

App. 48
v. Flaherty, 623 F.3d 577, 583 (8th Cir. 2010). Thus,
Plaintiffs’ § 1983 claims must be dismissed for the
same reasons that their Title IX claims will be dismissed.
III. Political Subdivisions Tort Claims Act
The Nebraska Political Subdivisions Tort Claims
Act (NPSTCA), Neb. Rev. St. § 13-901 et seq., waives
immunity of political subdivisions, in part, for negligent acts of their employees. Doe v. Omaha Pub. Sch.
Dist., 727 N.W.2d 447, 453 (Neb. 2007). Political subdivisions retain their sovereign immunity with respect
to several listed exceptions in § 13-910. “If a political
subdivision proves that a plaintiff ’s claim comes
within an exception pursuant to § 13-910, then the
claim fails based on sovereign immunity, and the political subdivision is not liable. Omaha Pub. Sch. Dist.,
727 N.W.2d at 454. Two exceptions bar Plaintiffs’
claims in this case: the intentional torts exception and
the discretionary function exception.
A. Intentional Torts Exception
Public employers do not waive immunity for
claims “arising out of ” intentional torts, including assault or battery. See § 13-910(7). Plaintiffs seek to
avoid the intentional tort exception by pleading their
negligence claims as claims for negligent supervision
and retention. In analyzing statutory language from
the Nebraska State Tort Claims Act, Neb. Rev. Stat.
§ 81-8,219, materially identical to § 13-910(7), the

App. 49
Nebraska Supreme Court stated that “[w]here the
plaintiff ’s tort claim is based on the mere fact of government employment (such as a respondeat superior
claim) or on the employment relationship between the
intentional tort-feasor and the government (such as a
negligent supervision or negligent hiring claim), the
exception . . . applies and the State is immune from
suit.” Johnson v. State, 700 N.W.2d 620, 625 (Neb. 2005)
(internal citation omitted). To permit otherwise, would
“frustrate the purposes of the exception.” Id. (quoting
Sheridan v. United States, 487 U.S. 392, 406–07 (1988)
(Kennedy, J., concurring in judgment)).
Although pled as claims for negligent supervision
and retention, Plaintiffs’ negligence claims arise out
of Robeson’s sexual assault. Plaintiffs’ primary allegations are that OPS failed to recognize signs that Robeson was a sexual predator, and his continued
employment allowed him to engage in a sexual relationship with a minor student. OPS’s liability in this
matter is based on the employment relationship between Robeson and OPS. Plaintiffs’ claims regarding
LD’s sexual assault therefore arise out of the employment relationship between Robeson and OPS and are
barred by the NPSTCA.
B. Discretionary Function Exception
Under the discretionary function exception, “a
plaintiff may not recover for a claim ‘based upon the
exercise or performance of or the failure to exercise or
perform a discretionary function or duty on the part of

App. 50
the political subdivision or an employee of the political
subdivision, whether or not the discretion is abused.’ ”
Larson by Larson v. Miller, 76 F.3d 1446, 1456 (8th Cir.
1996) (quoting Neb. Rev. Stat. § 13-910(2)). “The purpose of the discretionary function exception is to prevent judicial ‘second-guessing’ of legislative and
administrative decisions grounded in social, economic,
and political policy through the medium of an action
in tort.” Doe v. Omaha Public School Dist., 727 N.W.2d
447, 456-57 (Neb. 2007). The discretionary function exception applies to “basic policy decisions made in governmental activity, and not to ministerial activities
implementing such policy decisions.” Id. at 457. Nebraska courts use a two-step analysis when determining the applicability of the discretionary function
exception. Id. at 457. The court first must consider
whether the action is a matter of choice for the employee. Id. If the court concludes the action involves an
element of judgment, the court then determines
“whether that judgment is of the kind that the discretionary function exception was designed to shield.” Id.
Applying Nebraska law, the court in Larson concluded that decisions to “investigate, hire, fire, and retain” employees are generally discretionary decisions,
and held a school district’s decision to relocate and
then terminate an employee that allegedly sexually
abused a student fell within the discretionary function
exception to the PSTCA. 76 F.3d at 1457. The Eighth
Circuit recognized that an official’s duty to report under the Nebraska child abuse-reporting statute was
discretionary, not ministerial. Id. The court reasoned

App. 51
that whether “ ‘reasonable cause’ exists within the
meaning of the statute requires an exercise of discretion and personal judgment, which takes the matter
out of the realm of a ministerial act.” Id. (quoting Neb.
Rev. Stat. § 28-711); see also K.B. v. Waddle, 764 F.3d
821, 825 (8th Cir. 2014) (stating that duty under child
abuse-reporting statute was discretionary and noting
an official’s exercise of poor judgment still does not negate discretionary nature of act).
The decisions of OPS and Bartels that led to Plaintiffs’ claims were discretionary functions. The undisputed facts show that OPS delegated responsibility for
enforcing school policies to principals, depending on
the situation and context. Bartels used his discretion
to evaluate each situation reported, to decide what
investigation would occur, and to respond with any discipline warranted. He and other OPS administrators
were required to make choices, using their judgment,
and such discretionary functions are not to be second
guessed through the medium of tort under the
NPSTCA.
IV. Aiding and Abetting Intentional Infliction
of Emotional Distress
Plaintiffs allege that Bartels aided and abetted
Robeson in intentionally inflicting emotional distress
on LD. To the extent such a claim is not barred by the
NPSTCA, Plaintiffs have failed to show that Bartels
aided or abetted Robeson’s actions. Under Nebraska
law, the standard for civil aiding and abetting is the

App. 52
same as the standard for criminal aiding and abetting.
Generally, “one who counsels, commands, directs, advises, assists, or aids and abets another individual in
the commission of a wrongful act or tort is responsible
to the injured party for the entire loss or damage.”
Bergman v. Anderson, 411 N.W.2d 336, 340 (Neb. 1987)
(approving civil aiding and abetting jury instructions
adapted from jury instructions meant for criminal aiding and abetting). “Aiding and abetting involves some
participation in the criminal act or involves some conscious sharing in the criminal act, as in something that
the accused wishes to bring about, in furtherance of a
common design, either before or at the time the criminal act is committed, and it is necessary that he seeks
by his action to make it succeed.” State v. Foster, 242
N.W.2d 876, 879 (Neb. 1976).
Here, no facts suggest that Bartels ever intentionally encouraged or intentionally helped Robeson inflict
emotional distress on LD. Accordingly, the claim for
aiding and abetting intentional infliction of emotional
distress will be dismissed.
CONCLUSION
The Plaintiffs have not come forward with evidence raising any genuine issues of material fact as
to whether Bartels or OPS were aware of the nature
of Robeson’s sexual misconduct. Nor have Plaintiffs
presented evidence that Bartels or OPS were indifferent to what they knew. Finally, OPS and Bartels are
not liable under Nebraska tort law.

App. 53
IT IS ORDERED:
1.

The Motions for Summary Judgment filed by
Defendant Douglas County Public School District No. 001, a/k/a Omaha Public Schools
(OPS), ECF No. 124, and Defendant Daniel
Bartels, ECF No. 132, are granted;

2.

All claims against the Doe Defendants, OPS,
and Daniel Bartels are dismissed, with prejudice,

3.

All other pending motions and objections are
denied as moot; and

4.

The Clerk of Court is directed to remove the
Doe Defendants, OPS, and Bartels from the
case caption.

Dated this 1st day of November 2019.
BY THE COURT:
s/Laurie Smith Camp
Senior United States District Judge

App. 54
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
KD, Parent, Natural
Guardian and Next
Friend of LD; and JD,
Parent, Natural Guardian
and Next Friend of LD;
Plaintiffs,

8:17CV285
MEMORANDUM
AND ORDER
(Filed Feb. 20, 2020)

vs.
BRIAN ROBESON
Defendant.
This matter is before the Court on the Plaintiffs’
Motion for Default Judgment, ECF No. 176. The Motion will be granted as to liability and the Court will
confer with Plaintiffs’ counsel to schedule a hearing before the Court on the issue of damages.
BACKGROUND
Plaintiffs filed this action on August 2, 2017,
against Defendants Douglas County Public School District No. 001, a/k/a Omaha Public Schools (OPS), Daniel Bartels, and Brian Robeson. ECF No. 1. Summonses
were issued August 3, 2017. ECF No. 8, Page ID 59.
Robeson was served with a summons and a return of
service was filed on August 9, 2017. ECF No. 12 Page
ID 65. Proof of service on Robeson was filed with this
Court on August 9, 2017. The Court dismissed OPS
and Bartels on November 1, 2020. Though Robeson

App. 55
gave a deposition at the Lincoln Correctional Center,
he failed to answer or otherwise plead.
Robeson was formerly employed by OPS. From August 2003 to 2013, he was assigned to OPS’s Prairie
Wind Elementary School, teaching sixth grade for several of those years. In 2013, he transferred to Davis
Middle School, because Prairie Wind Elementary was
eliminating its 6th Grade. After transferring, Robeson
taught 7th Grade pre-algebra and algebra, and “Take
Flight Class.” In 2013-14, Robeson taught algebra to
LD. She was also in Robeson’s “Take Flight Class.”
Robeson was not LD’s teacher in 2014-15 when she was
in 8th Grade.
Robeson began a sexual relationship with LD in
September 2014 which continued into the summer
between LD’s 8th Grade year and her high school
freshman year. Robeson’s conduct was discovered on
December 27, 2015, when he was caught inside the residence of KD and JD. This led to Robeson’s arrest and
conviction for first degree sexual assault. Robeson is
presently serving a 40-year sentence in the Nebraska
Penal and Correctional Complex.
As a result of Robeson’s sexual assault of LD, LD
suffered several injuries requiring medical care. LD
suffered physical harm and psychological injury. Her
psychological injury includes post-traumatic stress
disorder (PTSD); damage to her ability to trust and
carry on healthy, intimate relationships; interference
with normal brain development; and permanent depression and anxiety. As a result of her injuries, she

App. 56
has suffered special damages including expenses for
physical medical examinations, psychological examinations, psychiatric examinations, and therapy. Plaintiffs expect these treatments to be required for the rest
of LD’s life. KD and JD have also sustained general
damages for intentionally inflicted emotional distress.
STANDARD OF REVIEW
“The Federal Rules of Civil Procedure commit the
entry of a default judgment against a party to the
sound discretion of the trial court.” Belcourt Pub. Sch.
Dist. v. Davis, 786 F.3d 653, 661 (8th Cir. 2015) (quoting
FTC v. Packers Brand Meats, Inc., 562 F.2d 9, 10 (8th
Cir. 1977)) (per curiam). It is “appropriate for a district
court to enter a default judgment when a party fails to
appropriately respond in a timely manner.” Marshall v.
Baggett, 616 F.3d 849, 852 (8th Cir. 2010) (citing Inman
v. Am. Home Furniture Placement, Inc., 120 F.3d 117,
119 (8th Cir. 1997)). “Upon default, the factual allegations of a complaint (except those relating to the
amount of damages) are taken as true, but ‘it remains
for the court to consider whether the unchallenged
facts constitute a legitimate cause of action, since a
party in default does not admit mere conclusions of
law.’ ” Murray v. Lene, 595 F.3d 868, 871 (8th Cir. 2010)
(quoting 10A Charles Alan Wright et al., Federal Practice and Procedure § 2688 (3d ed 1998)).

App. 57
DISCUSSION
Plaintiffs asserted claims against Robeson for battery and intentional infliction of emotional distress.
They also sued Robeson for violation of LD’s constitutional rights under 42 U.S.C. § 1983. They now request
a hearing to determine the amount of damages, asserting that evidence of her damages is not amenable to
presentation on paper. The Court will first review the
legitimacy of LD’s claims against Robeson and then
consider how to determine damages.
I.

Robeson’s Liability

To state a legitimate battery claim, Plaintiffs must
plead facts alleging that Robeson had physical contact
with LD “without consent or justification.” Kant v.
Altayar, 704 N.W.2d 537, 540 (Neb. 2005). To state a
legitimate claim for intentional infliction of emotional
distress, Plaintiffs must allege facts showing (1) intentional or reckless conduct, (2) the conduct was “so outrageous in character and so extreme in degree as to
go beyond all possible bounds of decency and is to be
regarded as atrocious and utterly intolerable in a civilized community,” and (3) the conduct caused “emotional distress so severe that no reasonable person
should be expected to endure it.” Id. (citing Gall v.
Great Western Sugar Co., 363 N.W.2d 373 (Neb. 1985)).
“The same wrongful conduct may support a civil action
based on a theory of battery as well as an action based
upon the independent tort of intentional infliction of
emotional distress.” Id.

App. 58
The Complaint states legitimate causes of action
with respect to both torts. Plaintiffs alleged that Robeson sexually assaulted LD—his 8th grade student—on
an unknown number of occasions. LD could not consent to Robeson’s sexual contact. Further, Plaintiffs
have pled that Robeson’s conduct was outrageous and
caused LD and her family severe emotional distress.
Under § 1983, Plaintiffs must assert facts that
“the conduct complained of was performed under color
of state law and that the conduct deprived [Plaintiffs]
of rights, privileges, or immunities secured by the Constitution or Federal law.” Kinman v. Omaha Pub. Sch.
Dist., 171 F.3d 607, 611 (8th Cir. 1999). The Eighth Circuit has found due process violations when state actors have sexually abused individuals. Id. Specifically,
the Eighth Circuit has held that a student states a
legitimate claim when she alleges that her teacher
“deprived her of her constitutionally protected substantive right to be free from such bodily harm and
sexual molestation and abuse as secured by the Due
Process and/or Equal Protection Clauses of the 14th
Amendment to the U.S. Constitution.” Id. This is the
precise nature of Plaintiffs’ § 1983 claims. Accordingly,
Plaintiffs have stated a legitimate cause of action under § 1983 for purposes of default judgment.
II.

Assessment of Damages

Having determined that Plaintiffs stated legitimate causes of action against Robeson, the Court must
determine the amount of damages. Rule 55(b)(2) of the

App. 59
Federal Rules of Civil Procedure states that the Court
“may conduct hearings or make referrals—preserving
any federal statutory right to a jury trial—when, to enter or effectuate judgment, it needs to” conduct an accounting, determine the amount of damages, establish
the truth of any allegation by evidence, or investigate
any other matter. Plaintiffs assert that documentary
presentation of the injuries suffered by a sexual assault victim does not allow the decisionmaker to conduct a meaningful evaluation of the evidence and
injury. Accordingly, Plaintiffs request a hearing with
live testimony. Plaintiffs further request that “their
right to trial by jury be respected on the issue of damages.” Pl. Br. at 4, ECF No. 179, PageID 3601.
A. Right to Jury Trial After Default Judgment
Plaintiffs cite no authority for their proposition
that they have a constitutional right to a jury trial on
the issue of damages after a default. The Eighth Circuit has not considered this issue; however, most circuits that have addressed the issue have held the
Seventh Amendment right to jury trial does not survive default. See Olcott v. Delaware Flood Co., 327 F.3d
1115, 1124 (10th Cir. 2003) cert. denied, 540 U.S. 1089,
(2003) (“Defendants do not have a constitutional right
to a jury trial following entry of default”); Sells v. Berry,
24 F. App’x 568, 571 (7th Cir. 2001); Graham v. Malone
Freight Lines, Inc., 314 F.3d 7, 16 (1st Cir. 1999); Matter
of Dierschke, 975 F.2d 181, 185 (5th Cir. 1992) (“It is
also ‘clear . . . that in a default case neither the plaintiff

App. 60
nor the defendant has a constitutional right to a
jury trial on the issue of damages’ ”) (quoting 5 James
W. Moore, et. al., Moore’s Federal Practice § 38.19(3)
(1992)); Adriana Int’l Corp. v. Thoeren, 913 F.2d 1406,
1414 (9th Cir. 1990). See also Parlier v. Casteen, No.
5:14CV00085, 2016 WL 3032692, at *2, n. 2 (W.D.N.C.
May 26, 2016); Raines v. Hollingsworth, No. CIV. 081016-KES, 2009 WL 3233430, at *17 (D.S.D. Sept. 28,
2009).
Federal Rule of Civil Procedure 55(b)(2) provides
that courts can conduct hearings to determine the
amount of damages after default judgment, “preserving any federal statutory right to a jury trial.” Fed. R.
Civ. P. 55(b)(2). Despite the reference to a “federal statutory right to a jury trial,” courts and scholars interpret the text to apply only to the unusual situation
where a statute specifically preserves the right to a
jury trial after default judgment. Manno v. Tennessee
Prod. Ctr., Inc., 657 F. Supp. 2d 425, 430 (S.D.N.Y.
2009); Benz v. Skiba, Skiba & Glomski, 164 F.R.D. 115,
116 (D. Me. 1995); 10 Charles Alan Wright & Arthur
R. Miller, Federal Practice and Procedure § 2688 (4th
ed. 2019).
The Advisory Committee notes make clear that
the reference to jury trial in Rule 55 applies only to
statutes that specifically require jury trials after default. The notes state that this clause “preserves 28
U.S.C. § 1874 and similar statutes.” Notes of Advisory
Committee on Rules, 1937 Adoption, Note to Subdivision (b). Section 1874 provides that in certain types of
collection actions there is a right to jury trial after

App. 61
default. Unlike § 1874, 42 U.S.C. § 1983 does not specifically preserve the right to a jury trial after default.
Accordingly, there is no statutory or constitutional
right to a jury trial on the issue of damages in this case.
B. Nature of Hearing on Damages
Although Plaintiffs do not have a right to a jury
trial on the issue of damages, courts have discretion to
order a jury trial as to damages after default judgment
if it appears to be the best way to assess damages.
Armeni v. Transunion LLC, Inc., No. 3:15-CV-00066,
2016 WL 7046839, at *3 (W.D. Va. Dec. 2, 2016); Lumbermen’s Mut. Cas. Co. v. Holiday Vehicle Leasing Inc.,
No. 02CIV.137(LAK)(MHD), 2003 WL 1797888, at *2
(S.D.N.Y. Apr. 4, 2003); Benz, 164 F.R.D. at 117; Gill v.
Stolow, 18 F.R.D. 508, 510 (S.D.N.Y. 1955), rev’d on
other grounds, 240 F.2d 669 (2d Cir. 1957) (“[I]t is no
doubt within my discretion to order a jury trial on this
issue . . . ”); Wright & Miller § 2688 (“[T]he court may
order a jury trial as to damages in a default situation
if it seems to be the best means of assessing damages.”).
Here, the Court concludes that judicial economy,
responsible stewardship of juror resources, and all
other factors weigh in favor of a hearing on the issue
of damages before the Court without a jury.1
1

The Court acknowledges that other courts have, in their
discretion convened a jury for the purposes of determining damages. See Armeni, 2016 WL 7046839, at *4; Ault v. Baker, No.
4:12-CV00228-KGB, 2013 WL 1247647, at *10 (E.D. Ark. Mar. 27,

App. 62
Accordingly,
IT IS ORDERED:
1.

The Motion for Default Judgment, ECF No.
176, is granted as to liability; and

2.

The Court will confer with counsel for Plaintiffs to schedule a hearing on the issue of damages before the Court.

Dated this 20th day of February 2020.
BY THE COURT:
s/Laurie Smith Camp
Senior United States District Judge

2013). However, in these cases, the defendants appeared after
entry of default and demonstrated an intent to defend against the
plaintiffs’ claims for damages. Robeson has shown no intention of
defending against Plaintiffs’ claims for damages.

App. 63
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
KD, Parent, Natural
Guardian and Next
Friend of LD; and JD,
Parent, Natural Guardian
and Next Friend of LD;
Plaintiffs,

8:17CV285
MEMORANDUM
AND ORDER
(Filed Mar. 18, 2020)

vs.
BRIAN ROBESON
Defendant.
This matter is before the Court on Plaintiffs’ Motion for Default Judgment, ECF No. 176, on the issue
of damages. In the Memorandum and Order dated February 20, 2020, ECF No. 180, the Court granted Plaintiffs’ Motion for Default Judgment. On March 9, 2020,
Plaintiffs appeared before the Court to present evidence on the issue of damages. At the hearing on damages, Plaintiffs presented testimony from KD, JD, LD,
Dr. Kevin Ray Piske, and Father David Martin Korth.
The Court also received into evidence Exhibit 206 and
took judicial notice of evidence already electronically
filed in the record.1

1

At the hearing, Plaintiffs’ counsel represented that, except
for Exhibit 206, the evidence presented at the hearing corresponded to evidence presented during summary judgment proceedings. Further review revealed that the evidence presented
at the hearing did not correspond to the evidence at summary

App. 64
DISCUSSION
“When a default judgment is entered on a claim
for an indefinite or uncertain amount of damages, facts
alleged in the complaint are taken as true, except
facts relating to the amount of damages, which must
be proved in a supplemental hearing or proceeding.”
Everyday Learning Corp. v. Larson, 242 F.3d 815, 818
(8th Cir. 2001). Plaintiffs bear the burden of establishing damages “to a reasonable degree of certainty.” See
id. Plaintiffs have presented evidence of general and
special damages2 and the Court has reviewed Plaintiffs’ evidence under this standard.
General Damages
Plaintiff LD’s testimony established that she suffered significant damages because of Robeson’s conduct.
LD’s testimony was corroborated by the testimony of
the other witnesses. After reviewing the evidence in
the record and comparing jury verdicts in similar
cases, the Court concludes that LD is entitled to general damages in the amount of $1,000,000.00.
Special Damages
Plaintiffs have submitted proof of LD’s future
special damages. At the evidentiary hearing, Plaintiffs
judgment proceedings, though it appears some of the documents
have been filed with the Court.
2
Plaintiffs’ Complaint also made a request for punitive damages under 42 U.S.C. § 1983 but Plaintiffs have not presented any
argument or request for punitive damages at this stage.

App. 65
introduced the Declaration of S. Ryan Greenwood, Exhibit 206, which detailed Plaintiffs’ request for LD’s future mental health treatment. Plaintiffs’ calculation of
the cost of future mental health treatment considered
the projected inflation rate and discounted the total
amount to present value. The Court has reviewed the
calculation and concludes that Plaintiffs’ request is
reasonable. Accordingly, Plaintiffs are awarded special
damages in the amount of $249,540.41.
The Court cannot determine the amount of the
Plaintiffs’ damages for LD’s past medical or mental
health treatment or any other special damages. Although Plaintiffs have referred to expenses for past
treatments, Plaintiffs have not submitted invoices or
any documents providing a partial or comprehensive
summary of LD’s care. At the hearing, Plaintiffs presented testimony of the cost of therapy for KD and JD,
but counsel for Plaintiffs made clear that they were not
seeking special damages for anyone other than LD. Instead, such testimony was meant to show the “full insult” to the entire family. KD also testified that the
family’s annual deductible and co-pay expenses were
about $5,000, but KD was not sure whether the family
actually paid that amount each year and there was no
evidence of actual medical expenses for LD. Plaintiffs
have not attempted to provide any evidence of LD’s
past medical expenses “to a reasonable degree of certainty.” See Everyday Learning, 242 F.3d at 818. Accordingly, the Court cannot enter a special damages
award for these expenses.

App. 66
IT IS ORDERED:
1.

Default judgment is entered in favor of Plaintiffs and against Defendant Brian Robeson in
the amount of $1,249,540.41; and

2.

A separate judgment will be entered.

Dated this 18th day of March, 2020.
BY THE COURT:
s/Laurie Smith Camp
Senior United States District Judge

